                Improvements Are Needed to the Updated
                  Web Site for Political Organizations to
                Increase the Accuracy and Consistency of
                   Search Results for Filing Information

                                      May 2004

                       Reference Number: 2004-10-097




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                           WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                               May 6, 2004


       MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                      ENTITIES DIVISION



       FROM:                   (for) Gordon C. Milbourn III
                               Acting Deputy Inspector General for Audit

       SUBJECT:                Final Audit Report - Improvements Are Needed to the Updated
                               Web Site for Political Organizations to Increase the Accuracy
                               and Consistency of Search Results for Filing Information
                               (Audit # 200310030)


       This report presents the results of our review of the Internal Revenue Service (IRS)
       disclosure web site for Section 527 political organizations. The overall objective of this
       review was to determine if the IRS timely and effectively complied with the new public
       disclosure requirements for Section 527 political organizations as required by
       Public Law 107-276 (2002).
       In summary, we found that although the Political Organizations Filing and
       Disclosure (POFD) web site was timely implemented, several improvements are needed
       to provide more accurate and consistent information to the public. For example, some
       search results identified only the first contributor or recipient of funds even if there were
       others who met the search criteria. Also, our testing showed that some search results
       do not always provide accurate results related to contribution or expenditure amounts.
       Tax Exempt and Government Entities Division management took action to correct this
       issue after we brought it to their attention. Furthermore, search results were sometimes
       incomplete when a name (e.g., organization, contributor, custodian of record) was used
       as the primary search criteria to obtain data. We also identified instances where less
       detailed information is provided depending on the search option used. As a result of
       these problems, public interest groups using the POFD web site’s search options may
       receive inaccurate and inconsistent contribution and expenditure information. This may
       limit the public’s ability to gain an understanding of a political organization’s financial
       information or track the flow of funds related to legislative issues and political
       campaigns.
                                           2

We recommended that the Director, Exempt Organizations (EO), develop and
implement POFD system changes to ensure accurate and consistent results. The
changes should ensure that all contributors and recipients of funds are included in
search results. In addition, IRS management should clarify guidelines so that users
easily understand the various search options and the expected results. Finally, the
search options should be revised to ensure users are provided with consistent
information when using the various POFD web site’s search options.
Management’s Response: IRS management agreed with the recommendations
contained in the report. The Director, EO, has already completed corrective actions to
ensure that the Popular Search provides all contributors and recipients that meet the
user’s search criteria and that the information provided is consistent with the Advanced
and Basic Search results. In addition, the Director, EO, will revise the examples in the
“Tips for Successful Searching” article and in the Search Process User Guide to include
additional illustrative examples. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
      Improvements Are Needed to the Updated Web Site for Political Organizations to
       Increase the Accuracy and Consistency of Search Results for Filing Information




                                              Table of Contents


Background .............................................................................................. Page   1
The Internal Revenue Service Timely Complied With
the New Public Disclosure Requirements for Section 527
Political Organizations .............................................................................. Page      3
Search Results Are Not Always Accurate and Consistent........................ Page                               5
         Recommendations 1 through 3: ................................................. Page 10

Appendix I – Detailed Objective, Scope, and Methodology ...................... Page 11
Appendix II – Major Contributors to This Report....................................... Page 13
Appendix III – Report Distribution List ...................................................... Page 14
Appendix IV – Outcome Measures .......................................................... Page 15
Appendix V – Management’s Response to the Draft Report .................... Page 16
    Improvements Are Needed to the Updated Web Site for Political Organizations to
     Increase the Accuracy and Consistency of Search Results for Filing Information

                                 Political organizations are organized and operated primarily
Background
                                 to accept contributions and make expenditures for the
                                 purpose of influencing the selection, nomination, election,
                                 or appointment of any individual to Federal, state, or local
                                 public office. Political organizations include political
                                 parties; campaign committees for candidates for Federal,
                                 state, or local office; and political action committees.
                                 The Internal Revenue Code (I.R.C.) Section (§) 5271
                                 requires each political organization that desires to be tax
                                 exempt to notify the Internal Revenue Service (IRS) that it
                                 is to be treated as a Section 527 political organization. To
                                 notify the IRS, the organization must electronically file a
                                 Political Organization Notice of Section 527 Status
                                 (Form 8871).
                                 An organization must also electronically file a Political
                                 Organization Report of Contributions and Expenditures
                                 (Form 8872) if it has, or expects to have, contributions or
                                 expenditures exceeding $50,000 for the calendar year. An
                                 organization with contributions or expenditures less than
                                 $50,000 can file the Form 8872 either electronically or on
                                 paper.
                                 On November 2, 2002, Public Law 107-2762 was enacted,
                                 amending the I.R.C. § 527. The Congress implemented
                                 Public Law 107-276 to improve the quality of information
                                 disclosed by Section 527 political organizations and enable
                                 the public to review the information that political groups
                                 disclose to the IRS.
                                 Under this legislation, the IRS must make all electronic
                                 Form 8871 and 8872 filings available for public disclosure
                                 on the Internet within 48 hours after filing, effective for
                                 notices and reports due on or after June 30, 2003. Also, the
                                 filings must be searchable and downloadable by certain
                                 criteria, such as the organizations’ names, zip codes,
                                 contributors, etc.
                                 In response to the legislation, the IRS’ Tax Exempt and
                                 Government Entities (TE/GE) Division implemented a new
                                 Political Organization Filing and Disclosure (POFD) web


                                 1
                                     I.R.C. § 527 (2002).
                                 2
                                     Pub. L. No. 107-276 (2002).
                                                                                        Page 1
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information

                             site. The POFD web site allows political organizations to
                             electronically file Forms 8871 and 8872 and allows the
                             public to view, search, or download the entire database of
                             electronic filings by political organizations. The public can
                             learn contributors’ names, contribution amounts, and
                             contribution dates, as well as review a list of expenditures
                             by the political organization. The POFD web site replaces
                             the prior filing and search web site that was developed in
                             2000 in response to earlier legislation. Although the IRS is
                             not required to make paper forms available for public
                             disclosure on the Internet, these forms can be viewed and
                             downloaded from the POFD web site. Paper forms cannot
                             be searched by specific information such as contributor,
                             expenditure amounts, or recipient names. However, paper
                             returns can be searched by organization name, the date the
                             form posts to the POFD web site, or the Employer
                             Identification Number (EIN).
                             The Bipartisan Campaign Reform Act of 2002 (BCRA)3
                             significantly changed Federal campaign law and could result
                             in increased contributions to Section 527 political
                             organizations. The BCRA prohibits raising and spending
                             “soft money”4 by Federal officeholders and candidates and
                             severely restricts the use of “soft money” by state and local
                             parties related to Federal election activities. There is an
                             expectation that more contributions will be made to tax
                             exempt entities, such as Section 527 political organizations,
                             not connected to candidates or officeholders because of
                             restrictions of the BCRA. As a result, this may increase the
                             importance of public disclosure of the activities of
                             Section 527 political organizations.
                             We performed our work during the period July 2003
                             through January 2004 in the TE/GE Division’s
                             Headquarters Office in Washington, D.C.; the TE/GE
                             Division’s Processing Center and the Western Development
                             Center in Ogden, Utah; the Information Technology Office
                             Headquarters in Washington, D.C.; and the Submission


                             3
                              Pub. L. No. 107-155 (2002).
                             4
                              Soft money is money given to political parties that is not subject to the
                             contribution and spending limits of the Federal Elections Campaign Act
                             (FECA). It is not subject to the provisions of the FECA because it is not
                             used to expressly advocate the election or defeat of specific candidates.
                                                                                               Page 2
     Improvements Are Needed to the Updated Web Site for Political Organizations to
      Increase the Accuracy and Consistency of Search Results for Filing Information

                                  Processing unit of the Ogden Submission Processing Center.
                                  The audit was conducted in accordance with Government
                                  Auditing Standards. Detailed information on our audit
                                  objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The IRS timely implemented the new POFD web site by
The Internal Revenue Service
                                  July 1, 2003, in compliance with Public Law 107-276.
Timely Complied With the New
                                  Specifically, the POFD web site contained Forms 8871
Public Disclosure Requirements
                                  and 8872 and provided the capability to search and
for Section 527 Political
                                  download Section 527 data. Although the web site was
Organizations
                                  timely implemented, several improvements are needed to
                                  provide more accurate and consistent information to the
                                  public. These improvements are discussed later in the
                                  report.
                                  IRS management had to work within compressed time
                                  periods to comply with the new reporting requirements for
                                  Section 527 political organizations. As stated previously,
                                  Public Law 107-276 was enacted on November 2, 2002,
                                  which gave the IRS approximately
                                  7 months to develop the web site. IRS management selected
                                  a private contractor to develop the system and finalized the
                                  system requirements in February 2003. The IRS monitored
                                  the system development and ensured the system was
                                  operational on July 1, 2003. The final cost to develop the
                                  POFD web site was $2.9 million, which was approximately
                                  $800,000 less than the $3.7 million budgeted for the project.
                                  The IRS was required to make available for public
                                  inspection Forms 8871 and 8872 electronically filed
                                  on or after June 30, 2003. We selected random samples of
                                  75 Forms 8871 and 75 Forms 8872 that were electronically
                                  filed after this date and determined that all sampled forms
                                  were included on the POFD web site. Our research also
                                  showed that the web site’s download feature allowed users
                                  to download the database of Forms 8871 and 8872.
                                  In an effort to ensure as much information as possible was
                                  available to the public on the new POFD web site, the IRS
                                  decided to transfer all paper and electronically filed
                                  Forms 8871 and 8872 that were filed before July 1, 2003,
                                  and resided on the prior disclosure web site. The IRS
                                  verified that the Forms 8871 and 8872 shown in Figure 1
                                                                                        Page 3
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information

                             were successfully transferred from the old web site to the
                             POFD web site.
                                       Figure 1. Forms 8871 and 8872 Transferred From
                                                Prior Site to the POFD Web Site

                                                        Form 8871              Form 8872
                                  Electronic              7,890                  1,766
                                     Paper                19,698                  28,129
                                     Total                27,588                  29,895
                             Source: IRS Statistics.

                             We selected random samples of 25 Forms 8871 and
                             25 Forms 8872 that were electronically filed from
                             January 1, 2002, through June 30, 2003, and determined
                             that all sampled forms were included on the POFD web
                             site. In addition, we selected a judgmental sample of
                             82 Forms 8871 and 167 Forms 8872 filed on paper during
                             the period January 1, 2002, through August 13, 2003,
                             and determined that all related information was
                             included on the POFD web site, except for information
                             related to 1 Form 8872.5
                             In addition to the transferred forms filed before
                             July 1, 2003, Section 527 political organizations
                             electronically submitted 546 Forms 8871 and
                             263 Forms 8872 during the period July 1 to
                             November 13, 2003. Also, 632 paper Forms 8872 were
                             submitted during the same period. Although the paper
                             forms can be viewed and downloaded from the POFD web
                             site, they cannot be searched by specific information such as
                             contributor, expenditure amounts, or recipient names.
                             In general, public reaction to the new web site shortly after
                             it became operational was positive. Public interest groups
                             such as the Public Citizen and the Campaign Finance
                             Institute (CFI) have both indicated that the new web site
                             is an improvement over the prior system. For example,
                             Public Citizen praised the ability to search electronically
                             filed data by contributor name and other criteria, as


                             5
                               After we provided this Form 8872 to TE/GE Division management,
                             they included it on the POFD web site on February 11, 2004.
                                                                                         Page 4
     Improvements Are Needed to the Updated Web Site for Political Organizations to
      Increase the Accuracy and Consistency of Search Results for Filing Information

                                  well as the ability to download and convert data files.
                                  Public Citizen, however, noted that users are unable to
                                  search information filed on paper returns by contributor or
                                  other important search criteria, limiting their ability to spot
                                  trends in this area.
                                  The CFI also positively commented on the POFD web site’s
                                  enhanced search capabilities, but pointed out that the web
                                  site allows a user to download only the entire database (or
                                  portions separated alphabetically), rather than information
                                  from individual Forms 8871 and 8872. In addition, the CFI
                                  cited the inability within the POFD web site to move
                                  directly from an organization’s donor list to the complete
                                  record of donations for a particular donor as a drawback.
                                  Instead, the CFI noted that a new search must be initiated to
                                  identify this information. Further, the CFI noted that the
                                  new POFD web site does not clearly tell users that the
                                  majority of information on the web site was not
                                  electronically filed and, therefore, is not able to be accessed
                                  by some of the web site’s more advanced search features.
                                  This should improve as more organizations are required to
                                  file electronically.
                                  Based on our review of the sampled Forms 8871 and 8872,
Search Results Are Not Always
                                  the POFD web site’s search features did not always provide
Accurate and Consistent
                                  accurate and consistent results. For example, some searches
                                  did not show all information requested or did not produce
                                  results in accordance with what the instructions described.
                                  The IRS can improve the web site’s search capabilities and
                                  clarify instructions to ensure users are able to effectively
                                  obtain desired results. Without complete and accurate
                                  search results, public interest groups may be limited in their
                                  attempts to gain an understanding of campaign financing
                                  activities and to identify contribution and expenditure
                                  activity of political groups.
                                  The POFD web site can be used to conduct three different
                                  types of searches:
                                          The Basic Search locates information about
                                          political organizations by name, by the date the
                                          form was received, or by the EIN.
                                          The Advanced Search has the ability to go
                                          beyond the Basic Search by locating a political

                                                                                           Page 5
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information

                                    organization that filed electronically by any of
                                    the fields, such as the name of the
                                    organization’s contact person, the amount of a
                                    contribution, or the name of a contributor.
                                    The Popular Search provides easy access to
                                    routine information. A user simply chooses one
                                    of the pre-defined searches of available
                                    information, such as a listing of all political
                                    organizations that filed a Form 8871 on the
                                    previous day, persons making yearly
                                    contributions in excess of an amount the user
                                    specifies, or persons receiving payment in
                                    excess of an amount the user specifies.
                             We determined the reason why these inaccuracies were not
                             identified was the aggressive time period that the IRS had
                             for developing the system. This time period allowed for
                             only limited system testing. In addition, the IRS did not
                             sufficiently define some system requirements or did not
                             accurately provide some of the requirements to the vendor.
                             As a result, some of the searches were not programmed as
                             intended by IRS management. Specifically, TE/GE
                             Division management stated that the Popular Search feature
                             was not fully tested prior to implementation to identify the
                             following errors and only limited test data was available for
                             the Advanced and Basic Search features, so the following
                             inadequacies were not identified.
                             POFD web site search features do not always identify all
                             contributors or recipients of funds to political
                             organizations
                             Our review of sampled Forms 8872 showed that the Popular
                             Search option identified only the first contributor or
                             recipient of funds even if there were others who met the
                             search criteria. For example, in searching to identify
                             contributors on a specific Form 8872 who gave in excess of
                             $2,999, the search result listed only 1 contributor. However,
                             the Form 8872 listed 5 contributors as making contributions
                             in excess of $2,999. We also found the same problem when
                             a Popular Search was done to identify any person with
                             aggregate contributions in excess of a specified dollar
                             amount, or any person receiving a payment in excess of a
                             specified dollar amount.
                                                                                       Page 6
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information

                             We also determined that the Advanced Search option does
                             not always provide accurate results related to contribution or
                             expenditure amounts. When using the Advanced Search
                             option to request contribution or expenditure information,
                             the researcher must specify a range of contributions or
                             expenditures (e.g., ranging “from $5,000 to $10,000”).
                             However, our testing showed that search results for
                             94 of the 100 sampled Forms 88726 were not inclusive of
                             the amounts requested; that is, amounts for exactly the low
                             and high end of the range (i.e., $5,000 and $10,000) were
                             not identified. In order to obtain those amounts, the
                             researcher has to request $1 less than the lower amount
                             requested and $1 more than the higher amount requested
                             (i.e., $4,999 and $10,001). After we brought this issue to
                             their attention, TE/GE Division management took action to
                             ensure the Advanced Search provides, inclusively, all
                             contributions and expenditures for a user’s search range.
                             The “wild card” search feature did not always provide
                             complete results when searching the name field on the
                             new POFD web site
                             Search results were sometimes incomplete when a name
                             (e.g., organization, contributor, custodian of record) was
                             used as the primary search criteria. The prior disclosure
                             web site required users to know the exact name of an
                             organization to conduct a name search for an organization.
                             To overcome this limitation, TE/GE Division management
                             designed the new POFD web site to enable users to perform
                             name searches even if only a portion of a name is known.
                             This is done through a “wild card” technique by entering an
                             asterisk (*) either before, in the middle of, or after a word or
                             part of a word to indicate that any narrative or space is
                             acceptable where the asterisk is inserted.




                             6
                               Six of the 100 selected Forms 8872 did not contain a Schedule A,
                             Itemized Contributions, or Schedule B, Itemized Expenditures and,
                             therefore, were not affected by the search limitation identified.
                                                                                            Page 7
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information

                             According to the POFD web site’s User Guide and search
                             tips, there are three types of “wild card” searches: Right
                             Truncation, Left Truncation, and Middle Truncation.7
                             However, our testing identified limitations in the
                             effectiveness of the “wild card” search. Specifically,
                             we found that the “wild card” search did not always
                             identify existing records if the name includes punctuation
                             (e.g., periods or commas) and/or acronyms (e.g., CPA,
                             M.D., Jr., Sr.). Figure 2 shows examples of potential name
                             searches using the “wild card” feature and whether the
                             search would identify the information on the database.8
                                      Figure 2. Inconsistent POFD Web Site Search Results

                                 Name as Entered       Search Criteria9        Found       Not Found
                                  on Form 8872                                  with       with Search
                                                                               Search       Criteria
                                                                               Criteria
                              John B Smith, MD              *Smith                               X
                                                             Smith                 X
                                                            Smith*                               X
                                                          John Smith                             X
                                                      John B Smith, MD             X
                                                         John B Smith              X
                                                        *John B Smith                            X
                                                        John B Smith*              X

                             Source: Treasury Inspector General for Tax Administration Analysis.

                             The vendor stated that the “wild card” search has problems
                             with acronyms, middle initials, and punctuation because of


                             7
                               Right Truncation occurs when a word ends with an asterisk (e.g., a
                             search for Smith* may produce results containing Smithson, Smith for
                             President, etc.). Left Truncation occurs when a word begins with an
                             asterisk (e.g., a search for *president may produce Smith for President,
                             Jones for President, etc.). Middle Truncation occurs when an asterisk
                             is placed in the middle of a word (e.g., a search for org*tion may
                             produce organization, organized nation, etc.).
                             8
                               All names used in this report are entirely fictional and do not represent
                             actual persons or organizations. We have created and used them for
                             illustration purposes only.
                             9
                               * indicates “wild card” search conducted.
                                                                                                Page 8
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information

                             the way the search engine is structured. Specifically,
                             TE/GE Division management stated that the POFD web site
                             recognizes all characters related to a name (e.g., first name,
                             middle initial, last name, punctuation, and spaces) as a
                             unique field. Therefore, a search for a name using the “wild
                             card” feature will only identify exact matches contained in
                             that field. After we discussed this issue with IRS
                             management, they raised it with the vendor, who indicated it
                             could be resolved with a programming change. However,
                             the vendor cautioned that this approach could result in a
                             significant amount of search result information not related
                             to a user’s specific request, which would increase the
                             burden on the POFD web site users as they attempt to
                             determine which information is relevant. For example, this
                             type of programming change could result in a search for Joe
                             E Doe returning Joey Ted Doe, Joe Ed Doe Sr., Joey
                             Edward Doeberman, Committee to Elect Joe E Doe for
                             Mayor, Joeanne Edwin Doe, etc. As a result, IRS
                             management stated they could add additional examples and
                             guidance in the User Guide and the POFD web site’s “Tips
                             for Successful Searching” to address this issue.
                             The Popular Search does not always provide as much
                             information as that provided using the Advanced or
                             Basic Searches
                             We identified several instances where users are provided
                             less detailed information using the Popular Search than that
                             provided using the other available search options.
                             Specifically, we determined that the results of a Popular
                             Search do not include the date a contribution or expenditure
                             is made. Instead, “none” is listed next to the date
                             information. However, date information is generally
                             included on the results from an Advanced Search. Date
                             information could be important to public interest groups in
                             their attempts to develop contribution and expenditure
                             trending information.
                             In addition, the availability of historical filing information is
                             much more limited using the Popular Search. The Popular
                             Search retrieves data by one of three methods: current
                             month, previous month, and current year. Thus, if the
                             Popular Search is being used in January or February to
                             obtain contribution or expenditure data, the results will be

                                                                                       Page 9
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information

                             very limited (i.e., current year searches will only provide
                             1 or 2 months of data) and may not be of value to the
                             researchers. However, users are able to obtain prior year
                             data using either the Basic or the Advanced Search option.
                             As a result of these problems, public interest groups using
                             the POFD web site’s search options may receive inaccurate
                             and inconsistent contribution and expenditure information.
                             This may limit the public’s ability to gain an understanding
                             of a political organization’s financial information or track
                             the flow of funds related to legislative issues and political
                             campaigns.

                             Recommendations

                             To address the conditions identified above, we recommend
                             the Director, Exempt Organizations (EO), develop and
                             implement POFD system changes and clarify user guidance
                             to ensure accurate and consistent search results.
                             Specifically, the Director, EO, should ensure that:
                             1. The Popular Search provides all contributors and
                                recipients that meet the user’s search criteria.
                             Management’s Response: The Director, EO, adopted the
                             recommendation, successfully tested it, and implemented
                             this capability in the system.
                             2. The instructions and examples contained in the User
                                Guide and the POFD web site’s “Tips for Successful
                                Searching” are updated to clarify the use of the
                                “wild card” search feature.
                             Management’s Response: The Director, EO, will revise the
                             examples in the “Tips for Successful Searching” article and
                             the Search Process User Guide to include additional
                             illustrative examples.
                             3. The Popular Search is revised to ensure search result
                                information is consistent with the Advanced and Basic
                                Search, such as the Form 8872 filing date and filing
                                information from the prior calendar year.
                             Management’s Response: The Director, EO, adopted this
                             recommendation, successfully tested it, and implemented
                             this revision.
                                                                                   Page 10
      Improvements Are Needed to the Updated Web Site for Political Organizations to
       Increase the Accuracy and Consistency of Search Results for Filing Information

                                                                                        Appendix I


                         Detailed Objective, Scope, and Methodology
 The overall audit objective was to determine if the Internal Revenue Service (IRS) timely and
 effectively complied with the new public disclosure requirements for Section 527 political
 organizations as required by Public Law 107-276 (2002). To accomplish this objective, we:

 I. Determined if the IRS’ web site was updated to include the new Section 527 disclosure
    information after June 30, 2003, as required by Public Law 107-276.

      A. Interviewed Tax Exempt and Government Entities Division management to obtain
         background information on the development, implementation, and status of the new
         searchable database.

      B. Accessed the Section 527 database on the IRS’ web site starting on July 1, 2003, to ensure
         the database was available to the general public.

II.   Assessed whether the IRS’ Section 527 database was searchable and downloadable, and
      whether data were timely and accurately input.

      A. Determined how the IRS ensured that Section 527 information received prior to
         July 1, 2003, was accurately and completely transferred to the new database.

         1. Obtained and reviewed a judgmental sample of 82 Political Organization Notices of
            Section 527 Status (Form 8871) and 167 Political Organization Reports of
            Contributions and Expenditures (Form 8872) filed on paper from January 1, 2002,
            through August 13, 2003. We used a judgmental sampling methodology due to time
            constraints and because we did not plan to project our results. In addition, the
            population of returns filed on paper could not be determined due to limitations in the
            IRS’ recordkeeping.

      B. Assessed controls used to ensure that Forms 8871 and 8872 electronically filed after
         June 30, 2003, were input within 48 hours after filing.

      C. Selected samples of electronically filed Forms 8871 and 8872 to ensure the new database
         contained applicable information and was searchable and downloadable.

         1. Obtained and reviewed random samples of 25 Forms 8871 from a population of 7,025
            and 25 Forms 8872 from a population of 1,263 filed from January 1, 2002, through
            June 30, 2003. We used a random sample to ensure each account had an equal chance
            of being selected, which enabled us to obtain sufficient evidence to support our
            results.

                                                                                                Page 11
    Improvements Are Needed to the Updated Web Site for Political Organizations to
     Increase the Accuracy and Consistency of Search Results for Filing Information

      2. Obtained and reviewed random samples of 75 Forms 8871 from a population of
         317 and 75 Forms 8872 from a population of 210 filed from July 1 through
         September 10, 2003. We used a random sample to ensure each account had an equal
         chance of being selected, which enabled us to obtain sufficient evidence to support
         our results.
.




                                                                                      Page 12
    Improvements Are Needed to the Updated Web Site for Political Organizations to
     Increase the Accuracy and Consistency of Search Results for Filing Information

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Jeffrey M. Jones, Audit Manager
Theresa M. Berube, Senior Auditor
Kenneth C. Forbes, Senior Auditor
Andrew J. Burns, Auditor
Donald J. Martineau, Auditor




                                                                                      Page 13
   Improvements Are Needed to the Updated Web Site for Political Organizations to
    Increase the Accuracy and Consistency of Search Results for Filing Information

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner - Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Assessment RAS:O
Office of Management Controls OS:CFO:AR:M




                                                                                  Page 14
    Improvements Are Needed to the Updated Web Site for Political Organizations to
     Increase the Accuracy and Consistency of Search Results for Filing Information

                                                                                      Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Reliability of Information - Potential; 94 political organizations contained on the Political
    Organization Filing and Disclosure (POFD) web site (see page 5).
Methodology Used to Measure the Reported Benefit:
We selected a random sample of 75 Political Organization Report of Contributions and
Expenditures (Form 8872) from a population of 210 Forms 8872 that were electronically filed
from July 1 through September 10, 2003. In addition, we selected a random sample of
25 Forms 8872 from a population of 1,263 Forms 8872 that were electronically filed from
January 1, 2002, through June 30, 2003.
For the 100 Forms 8872 selected, we determined that 94 Forms 8872 contained contribution
and/or expenditure information included on the Form 8872 (Schedule A, Itemized Contributions
and/or Schedule B, Itemized Expenditures). Our testing showed that search results were not
inclusive of the amounts requested; that is, amounts for exactly the low and high end of the range
(e.g., $5,000 and $10,000) were not identified when using the Advanced Search feature. As a
result, a search of the POFD web site may not identify all contributions or expenditures related to
political organizations for these 94 organizations. Six of the selected Forms 8872 did not contain
a Schedule A or Schedule B and, therefore, were not affected by the search limitation identified.




                                                                                             Page 15
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information

                                                                       Appendix V


                Management’s Response to the Draft Report




                                                                            Page 16
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information




                                                                            Page 17
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information




                                                                            Page 18
Improvements Are Needed to the Updated Web Site for Political Organizations to
 Increase the Accuracy and Consistency of Search Results for Filing Information




                                                                            Page 19
